      Department of Homeland Security




            FEMA’s Efforts To Recoup Improper 

             Payments in Accordance with the 

             Disaster Assistance Recoupment 

                  Fairness Act of 2011 (2) 





OIG-12-91                                         June 2012

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.goY


                                 June 22, 2012


MEMORANDUM FOR:




FROM:
                              Assistant Inspector General
                              Office of Emergency Management Oversight

SUBJECT:                      FEMA's Efforts To Recoup Improper Payments in
                              Accordance With the Disaster Assistance Recoupment
                              Fairness Act of 2011 (2)

Attached for your information is our report, FEMA's Efforts To Recoup Improper
Payments in Accordance With the Disaster Assistance Recoupment Fairness Act of 2011
(2). As required by the subject legislation, we are reporting on the cost-effectiveness of
FEMA's efforts to recoup improper payments. This is the second in a series of six
reports that will be issued every 3 months through June 2013. We are not making any
recommendations in this report.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Kaye McTighe, Director; Adrian Dupree, Audit
Manager; and Stuart Josephs, Auditor.

Please call me with any questions, or your staff may contact John Kelly, Acting Deputy
Assistant Inspector General, Office of Emergency Management Oversight, at
(202) 254-4100.

Attachment
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   The Disaster Assistance Recoupment Fairness Act of 2011 (DARFA; Section 565 of the
   Consolidated Appropriations Act, 2012, P.L. 112-74) provides a limited-time,
   discretionary authority for the Administrator of the Federal Emergency Management
   Agency (FEMA) to waive debts arising from improper payments provided for disasters
   declared between August 28, 2005, and December 31, 2010. DARFA directs the DHS
   Inspector General to periodically report on the cost-effectiveness of FEMA’s efforts to
   recoup improper payments. This is the second in a series of six reports that will be
   issued every 3 months through June 2013.

   Following Hurricanes Katrina and Rita in 2005, and other disasters up to December 31,
   2010, FEMA disbursed more than $8 billion in assistance payments, some of which were
   later determined to have been improperly paid to individuals who were ineligible or
   who received duplicate payments. The debts in question arose in part because FEMA
   relaxed its internal controls in order to provide expedited delivery of assistance grants
   to displaced disaster survivors. The relaxed internal controls involved potential
   payments of $621.6 million to 167,488 survivors. After reviewing all of the cases, FEMA
   reduced that original estimate and determined that 91,178 recipients, who received
   more than $371 million, were candidates for recoupment. According to FEMA, there is
   sufficient justification not to recoup payment from the other 76,310 recipients, who
   collectively received more than $250 million in disaster assistance.

   The first report (OIG 12-62, March 2012) of this series presented in-depth background
   information, which is encapsulated in appendix B of this report.

   Overview
   As discussed with the Senate’s Committees on Homeland Security and Governmental
   Affairs and Appropriations, and the House Committees on Homeland Security,
   Transportation and Infrastructure, and Appropriations, the Office of Inspector General’s
   (OIG) reporting pursuant to DARFA (§ 565(b)(4)) will follow the ground rules below.

           1. For the purposes of OIG reporting, FEMA efforts are defined as undertakings
           such as (i) notifying potential debtors; (ii) adjudicating and reviewing responses;
           (iii) evaluating support provided; (iv) making arrangements to collect, waive,
           partially waive, terminate debt, and refer matters to the U.S. Department of the
           Treasury; (v) implementing quality control measures; and (vi) training staff to
           perform the above tasks.



www.oig.dhs.gov                                 2                                        OIG-12-91
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           2. The timeframe for the above FEMA efforts will be 15 days prior to the
           legislatively mandated deadline for each of the six serial OIG reports (e.g., the
           next OIG report, which is due on September 23, 2012, will cover our assessment
           activities up until September 8, 2012).

           3. Costs incurred by FEMA will include equipment and contractual expenses,
           salaries of assigned temporary and permanent staff, and refunds to those who
           were originally required to repay their disaster assistance benefits but were later
           deemed eligible for a waiver.

   Review Results to Date
   FEMA has implemented a centralized review and case management process that was
   described in the first report of this series.

   FEMA provided OIG with information regarding its DARFA waiver actions and estimated
   costs since December 2011. As of June 8, 2012, FEMA adjudicated 6,432 cases totaling
   $37,094,697 that were initially identified for recoupment. Of that amount, FEMA has
   granted waivers for applicants in approximately 96 percent of the cases it has reviewed.
   Specifically, FEMA has granted 6,167 waivers and denied 265 waivers totaling
   $35,497,327 and $1,597,370, respectively. Additionally, FEMA has expended an
   estimated $2,589,076 on related activities. This includes planning and implementing
   provisions of the process, training employees, and conducting waiver activities.

   FEMA determines whether applicant cases should be waived based on its interpretation
   of DARFA requirements. Consistent with the provisions of DARFA, before making a
   determination to waive a debt, FEMA Fraud Prevention and Detection Branch contacts
   OIG to ensure that FEMA’s Waiver Review Group does not issue waiver notices to
   DARFA applicants who are subjects of open investigations or have been convicted of a
   crime. FEMA also agreed to refer to OIG applicant cases it believes involve potential
   fraud, false claim, or misrepresentation. However, FEMA is not coordinating with OIG
   concerning waiver requests if the excessive payment was based on FEMA error, there
   was no fault by the debtor, or collection of the debt is against equity and good
   conscience.

   Table 1 summarizes FEMA’s decisions on the 6,432 adjudicated disaster assistance
   recipients requesting a debt waiver under the DARFA provisions. A debtor may have
   qualified for a waiver in more than one category which is reflected in the chart by
   occurrence. Under the current DARFA process, FEMA may grant either a full or partial
   waiver based on applicants meeting five basic eligibility requirements. This includes



www.oig.dhs.gov                                 3                                       OIG-12-91
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   applicants receiving payments based on FEMA error. According to FEMA’s Management
   Directive: Waiving Debts Pursuant to the Disaster Assistance Recoupment Fairness Act of
   2011, FEMA error may have resulted from manual processing errors, failure of FEMA
   personnel to include information in the system, failure of personnel to verify disaster-
   related loss or need prior to authorizing payment, or adoption of a new policy in the
   midst of a disaster.

   Table 1. FEMA Granting or Denying DARFA Waivers
                                                        Waivers                        Waivers
      Reasons for Debt Recoupment      Occurrences                   Occurrences
                                                        Granted                        Denied
    Duplication of Benefits With              2,528    $18,668,424              11      $42,336
    Household Member
    Duplication of Benefits With                629     $3,245,853            195     $1,295,138
    Insurance
    Another Member of Household                 261     $2,196,794               0             0
    Received Insurance
    Housing Assistance Overpayment              856     $1,820,391              22       $75,821
    Home Repair/Rental Assistance
    Occupancy Not Verified                      812     $2,015,675             13        $84,088
    Not Primary Residence (Students)            467     $1,476,691              0              0
    Not Primary Residence                       219     $1,425,227              4        $10,598
    Other                                     1,388     $4,648,272             34        $86,148
    Total                                     7,160    $35,497,327            279     $1,594,129
   Source: FEMA.

   Listed below are some examples of applicants who were deemed eligible for waivers:

       •	 Two persons at the same address registered and received assistance as “head of
          household.” Normally, this duplication would be identified and rejected by
          FEMA’s internal control system, but because controls had been relaxed to
          expedite assistance delivery, payments were duplicated.

       •	 At the time of registration, an applicant reported homeowner’s insurance
          coverage. Later, FEMA processed the case as eligible for home repair assistance
          without deducting the insurance settlement amount, thus creating a duplication
          of benefits – the applicant was paid both by FEMA and by the insurance
          company.

       •	 In two instances, applicants received duplicate benefits from two federal
          agencies, the U.S. Department of Housing and Urban Development (HUD), and
          FEMA. In one case the applicant met the criteria to be eligible for initial rental
           assistance and Disaster Housing Assistance Program recertification. FEMA paid the


www.oig.dhs.gov                                  4	                                        OIG-12-91
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           applicant after HUD provided assistance. FEMA did not have internal controls in place
           that checked with HUD to ensure that applicants would not receive duplicate assistance.

   Because the amount of debt that will be waived directly affects the cost-effectiveness of
   FEMA’s efforts to recoup improper payments, OIG will be analyzing FEMA’s adjudication
   process to determine if it follows the law, taking into account potential fraud,
   misrepresentation, or false claims by the debtor, which would preclude obtaining a
   waiver. Furthermore, OIG will determine whether the FEMA components that are
   involved in the DARFA process are adequately coordinating their efforts.

   Table 2 lists the costs that FEMA has incurred implementing the provisions of DARFA.
   Costs include planning and implementing provisions of the process, training staff, and
   conducting waiver activities. According to FEMA, no staff have been hired. Since May
   14, 2012, FEMA has offered the DARFA Waiver Review Group overtime but FEMA said
   the amount of overtime paid has not been significant. Some FEMA staff have received
   training to answer DARFA waiver applicant questions.

                              Table 2. DARFA Total Estimated Costs
                                    Category                Cost
                                   FEMA Staff               $2,469,786
                                  Contracting                 $102,194
                                Applicant Refunds              $17,096
                                      Total                $2,589,076
                              Source: FEMA.

   It is too early to determine the cost-effectiveness of the process because waiver
   requests and reimbursements are still ongoing. These issues will be addressed in future
   reports as information becomes available.




www.oig.dhs.gov                                  5                                          OIG-12-91
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objective, Scope, and Methodology
   The objective of this review was to provide an interim report on the cost-effectiveness
   of FEMA’s efforts to recoup improper payments in accordance with DARFA. To
   accomplish our objective, we reviewed and analyzed FEMA’s Management Directive:
   Waiving Debts Pursuant to the Disaster Assistance Recoupment Fairness Act of 2011;
   Federal laws, regulations, and testimony; prior OIG reports relevant to our review; and
   other applicable documents.

   We interviewed FEMA headquarters officials and National Processing Service Center
   employees in order to determine their waiver and recoupment process for adhering to
   DARFA. We conducted these interviews at FEMA locations in Washington, DC, and
   Winchester, VA.

   We conducted this review between March and June 2012 under the authority of the
   Inspector General Act of 1978, as amended, and according to the Quality Standards for
   Inspections issued by the Council of the Inspectors General on Integrity and Efficiency.

   We appreciate the efforts by FEMA management and staff to provide the information
   and access necessary to accomplish this review.




www.oig.dhs.gov                                6                                       OIG-12-91
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix B
   In-Depth Background
   For disasters declared between August 28, 2005 and December 31, 2010, FEMA
   disbursed more than $8 billion in assistance payments, some of which were later
   determined to have been improperly paid to individuals who were ineligible or who
   received duplicate payments. In 2006, FEMA began recoupment efforts in an attempt
   to recover the misspent public funds. In 2007, a group of Hurricane Katrina disaster
   assistance applicants facing recoupment filed a class action lawsuit against FEMA,
   alleging that it did not provide sufficient procedural due process. The plaintiffs
   successfully petitioned the court to issue an injunction enjoining FEMA from continuing
   its recoupment activities. In 2008, in light of the injunction and revised DHS debt
   collection regulations, FEMA terminated its recoupment process. As a result, FEMA
   withdrew recoupment notifications it sent to survivors of Hurricanes Katrina and Rita
   and later disasters, and proceeded to reexamine files for evidence of overpayment.
   FEMA also began to redesign its recoupment and debt collection procedures to conform
   to agency regulations.

   In 2011, FEMA commenced the revised recoupment process for the collection of
   overpayments. From March through December 2011, FEMA mailed nearly 90,000
   notices of debt and considered thousands of appeals and requests for payment plans
   and compromise.

   Some members of Congress were concerned about the fairness of FEMA collecting
   overpayments that had been the result of FEMA error and when a significant amount of
   time had elapsed before FEMA provided actual notice to the debtors. As a result of
   these concerns, Congress passed, and the President signed, DARFA (section 565 of the
   Consolidated Appropriations Act, 2012, P.L. 112-74).

   DARFA authorizes the Administrator of FEMA to waive a debt arising from improper
   payments provided for disasters declared between August 28, 2005, and December 31,
   2010, if the excessive payment was based on FEMA error; there was no fault by the
   debtor; collection of the debt is against equity and good conscience; and the debt does
   not involve fraud, a false claim, or misrepresentation by the debtor or others with an
   interest in the claim. FEMA is authorized to grant a waiver to eligible debtors with a
   2010 adjusted gross income (AGI) of up to $90,000 or less; and, subject to certain
   conditions, only a partial waiver to those with an AGI greater than $90,000.




www.oig.dhs.gov                               7                                       OIG-12-91
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretariat
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management

   Federal Emergency Management Agency

   Administrator
   Chief Counsel
   Chief of Staff
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   United States Senate
   Committee on Homeland Security and Governmental Affairs
   Committee on Appropriations, Subcommittee on Homeland Security

   U.S. House of Representatives
   Committee on Homeland Security
   Committee on Transportation
   Committee on Appropriations, Subcommittee on Homeland Security


www.oig.dhs.gov                                  8                  OIG-12-91
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
